<html>
<title> - [H.A.S.C. No. 111-116] THE THREAT POSED BY AL QA'IDA IN THE ARABIAN PENINSULA AND OTHER REGIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-116] 

                     THE THREAT POSED BY AL QA'IDA 

                        IN THE ARABIAN PENINSULA 

                           AND OTHER REGIONS 

                               __________

                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 20, 2010

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-296 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                                     















   SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                 Tim McClees, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant






















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, January 20, 2010, The Threat Posed by al Qa'ida in the 
  Arabian Peninsula and Other Regions............................     1

Appendix:

Wednesday, January 20, 2010......................................    35
                              ----------                              

                      WEDNESDAY, JANUARY 20, 2010
   THE THREAT POSED BY AL QA'IDA IN THE ARABIAN PENINSULA AND OTHER 
                                REGIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Subcommittee on Terrorism, Unconventional Threats and 
  Capabilities...................................................     2
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Subcommittee on Terrorism, Unconventional Threats and 
  Capabilities...................................................     1

                               WITNESSES

Benjamin, Ambassador Daniel, Counterterrorism Coordinator, U.S. 
  Department of State............................................     7
Olson, Adm. Eric T., USN, Commander, U.S. Special Operations 
  Command........................................................     5
Reid, Garry, Deputy Assistant Secretary of Defense for Special 
  Operations and Combating Terrorism, U.S. Department of Defense.     3

                                APPENDIX

Prepared Statements:

    Benjamin, Ambassador Daniel..................................    57
    Miller, Hon. Jeff............................................    40
    Olson, Adm. Eric T...........................................    49
    Reid, Garry..................................................    42
    Smith, Hon. Adam.............................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
   THE THREAT POSED BY AL QA'IDA IN THE ARABIAN PENINSULA AND OTHER 
                                REGIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
     Subcommittee on Terrorism, Unconventional Threats and 
                                               Capabilities
                       Washington, DC, Wednesday, January 20, 2010.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2237, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
WASHINGTON, CHAIRMAN, SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL 
                    THREATS AND CAPABILITIES

    Mr. Smith. Good morning. I call the meeting of the 
subcommittee to order. Appreciate our witnesses being here.
    I should point out that we will have votes imminently. It 
is my hope that we will be able to get through the opening 
statements at least from our three witnesses before we go to 
votes. And we will try to keep that as long as possible and 
then get back as quickly as we can.
    We are joined by three witnesses this morning, Garry Reid, 
who is the deputy assistant secretary of defense for special 
operations and combating terrorism at the Department of 
Defense; Admiral Eric Olson, United States Navy, who is the 
commander of our U.S. Special Operations Command; and 
Ambassador Daniel Benjamin, the counterterrorism coordinator 
for the Department of State.
    And the purpose of this hearing is to offer the committee 
members a brief background on our ongoing fight against al 
Qa'ida [AQ] and our knowledge of their terrorist networks. 
Sorry about the feedback here. I will move back a little bit.
    And, in particular, al Qa'ida in the Arabian Peninsula, in 
response to the recent attempted bombing of the airline flight 
on Christmas Day that apparently appears to have at least in 
part come out of Yemen.
    To give us a broader understanding of the broad global 
fight that is going on against al Qa'ida--I have, you know, 
been on the Armed Services Committee for 13 years now and 
chaired this committee for 3 years, and I can assure the 
American public that the three gentlemen in front of us--and 
many, many others--have been working for a long time against 
the threat that al Qa'ida presents and working in a 
comprehensive fashion.
    It is not a battle that is limited to Afghanistan or 
Pakistan or Iraq. We understand that this is a threat that 
metastasizes in a variety of different directions, and we are 
responding to that threat.
    I and other members of this committee have been around the 
world to a variety of different places where this is going on. 
Certainly, again, we have been to Iraq and Afghanistan and 
Pakistan, but we have also been to the Philippines, to 
Indonesia, to Yemen, other parts of the Middle East, and in 
Africa. It is a comprehensive struggle that we are in engaged 
in, and we are engaged aggressively in protecting the United 
States of America from that threat.
    I in particular want to point out that the Special 
Operations Command is the command that has primary 
responsibility for coordinating this response. They work very 
closely with the various regional combatant commanders, but 
they are the ones that take the lead in coordinating the fight 
against al Qa'ida and against other terrorist groups. And they 
are doing an outstanding job.
    The men and women who serve in our special forces are some 
of the best that we have to offer in this country. They are 
doing a great job all across the world on our behalf to prepare 
for us, get us into a position to fight back against al Qa'ida.
    So with that, I will yield to Mr. Miller for any opening 
statement that he might have, the ranking member on the 
committee, Mr. Miller.

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
   RANKING MEMBER, SUBCOMMITTEE ON TERRORISM, UNCONVENTIONAL 
                    THREATS AND CAPABILITIES

    Mr. Miller. Thank you very much, Mr. Chairman. We are 
reminded over the holidays that terrorist threat remains and 
that al Qa'ida and like-minded groups do not rest in their 
efforts to bring violence and destruction to the citizens of 
this country.
    Since 9/11, we have sought to disrupt al Qa'ida and deny it 
safe haven from which they operate. We cannot constrain our 
efforts, however, to specific countries or regions, as our 
enemy is unbounded in its approach.
    As al Qa'ida continues to morph and adapt, we must also be 
agile in our approach to countering the threat of terrorism 
around the globe.
    And with that, I yield back. I would like to add my 
statement for the record.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 40.]
    Mr. Smith. Thank you. I, too, have a statement for the 
record that I will submit.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 39.]
    Mr. Smith. The bells have gone off. We are going to press 
on for a little while anyway, get as much testimony as we can. 
So we will start with Assistant Secretary Reid.
    Mr. Reid, please.

STATEMENT OF GARRY REID, DEPUTY ASSISTANT SECRETARY OF DEFENSE 
FOR SPECIAL OPERATIONS AND COMBATING TERRORISM, U.S. DEPARTMENT 
                           OF DEFENSE

     Mr. Reid. Thank you, Mr. Chairman. And I, too, have 
submitted testimony and ask that it be entered into the record.
    Mr. Smith. And I apologize. Actually, I forgot one 
important thing. Obviously, a lot of what we are interested in 
with regards to the fight against al Qa'ida involves top-secret 
information that we don't want our enemies to know. All three 
of these folks here have information that is of a secret nature 
that they will not be revealing during this public hearing.
    I think it is important, nonetheless, to have this hearing, 
to talk about what we can talk about, let the public know that 
we are responding to the threat. But I would encourage all 
members of this committee, if they have questions that require 
secret information, seek out these gentlemen, seek out their 
departments. They are always very open and willing to meet with 
members and do that.
    For the purposes of this hearing, obviously, they will not 
be able to reveal that information, but we can get it in a 
different form. I apologize. Mr. Reid, please, go ahead.
    Mr. Reid. Okay. Thank you, Mr. Chairman. And with your 
permission and Congressman Miller, distinguished members, I 
just have brief opening remarks.
    Thank you for inviting me here today to discuss the threat 
of al Qa'ida in the Arabian Peninsula and other regions of the 
world. The Department of Defense [DOD] appreciates the enduring 
efforts of this committee to provide our special operations 
forces with the tools they need to defeat al Qa'ida, to protect 
themselves from improvised explosive devices, and to operate at 
the leading edge of technology in today's extremely complex 
global security environment.
    Although the attempted terrorist attack of December 25th on 
U.S. soil appropriately brought increased attention to the 
threat emanating from the Arabian Peninsula, it is vitally 
important--as you said, Mr. Chairman--that we view al Qa'ida in 
a global context.
    The enemy certainly has a global agenda. Osama bin Laden, 
in his 1996 declaration of war on us, said it is the duty of 
all Muslims to fight in every part of the world. Bin Laden's 
exploitation of ungoverned and poorly governed regions, such as 
Pakistan's Federally Administered Tribal Areas, the Trans-
Sahel, the Horn of Africa, and the remote islands of the South 
Pacific as sanctuary for his movement reflects his aspirations 
to establish a new caliphate that would extend from Mauritania 
to Indonesia.
    Although Department of Defense efforts to counter al Qa'ida 
around the world must be tailored to each specific region, they 
all rely on the concurrent execution of training and equipping 
our partner nations' security forces, increasing intelligence 
collection on the enemy threat, and conducting with our 
partners counterterrorism operations.
    And if I could just provide a brief overview of how this 
manifested itself in several regions, in Pakistan, the al 
Qa'ida core, although still a dangerous threat, has been 
significantly weakened by the operations and activities of many 
nations against them since 2001.
    Through the resources and authorities provided by the 
Pakistan counterinsurgency fund, the Department of Defense will 
continue to provide equipment, training and assistance to 
Pakistan's security forces to help improve their capabilities 
to defeat al Qa'ida and its extremist allies in their country.
    In north-central Africa, al Qa'ida in the Islamic Maghreb, 
or AQIM, is currently engaged in a region-wide kidnapping 
campaign to terrorize U.S. and European travelers and members 
of the diplomatic community. In May 2009, they executed a 
British citizen in northern Mali. In June, a U.S. citizen was 
shot and killed in Nouakchott, Mauritania, in an attempted 
apparent kidnapping by individuals associated with AQIM. In 
November of last year, heavily armed AQIM terrorists attempted 
to kidnap a U.S. embassy employee in Niger.
    The centerpiece of our efforts to counter AQIM is the 
Trans-Sahara Counterterrorism Partnership. The Department of 
Defense conducts bilateral training events underneath this 
program with partners in the region designed to improve 
counterterrorism capabilities, and we provide CT [counter 
terrorism]-related equipment through Section 1206 authorities.
    In East Africa, al Qa'ida continues to use the Somali safe 
haven as a training and recruitment base. AQ has provided 
training to al-Shabaab, which although predominantly an 
internal Somali movement, has shown signs of expanding its 
operations across Africa into Yemen and further into Europe.
    Department of Defense counterterrorism engagements in the 
region are designed to deal with both near-term threats and 
long-term development challenges. We work closely with our 
international and interagency partners to address al Qa'ida and 
other terrorist threats emanating from the Horn of Africa.
    Our long-term regional strategy is led by Combined Joint 
Task Force Horn of Africa, which employs an indirect approach 
to countering violent extremism, conducting operations to 
strengthen partner nations' security capacity, to enable long-
term stability, prevent conflict, and protect U.S. and 
coalition interests.
    In the Arabian Peninsula, AQAP, al Qa'ida in the Arabian 
Peninsula, is the AQ affiliate that poses the greatest threat 
currently to the United States. Al Qa'ida in Yemen was 
responsible for the 2008 attack on the U.S. embassy in Sana'a. 
And in 2009, the Saudi and Yemeni branches of al Qa'ida merged 
to form AQAP [al Qa'ida in the Arabian Peninsula].
    They are responsible for killing South Korean tourists in 
Yemen in March 2009, for the attempted assassination of Saudi 
Prince Muhammad bin Nayef in August 2009, and, of course, the 
attempted December 25th attack on a U.S. commercial airliner.
    To defeat AQAP, the Department of Defense cooperates 
closely with Yemeni security forces. Since 2006, we have 
provided over $98 million in counterterrorism assistance to 
increase their capabilities to prevent cross-border arms 
trafficking and regional foreign fighter flows, develop 
competent counterterrorism forces, and mitigate the threat of 
improvised explosive devices.
    We anticipate continuing a high level of commitment to 
developing Yemen's military and counterterrorism capacity in 
the future. Through a broad array of bilateral and multilateral 
initiatives, the department supports U.S. government efforts to 
address Yemen's political, economic and humanitarian concerns.
    In Iraq, although still capable of dramatic suicide 
bombings, al Qa'ida has been declining since the June 2006 
operation that led to the death of former leader, Abu Musab al-
Zarqawi. The U.S. military continues to provide training and 
assistance to Iraqi counterterrorism forces, and we will 
continue to provide this assistance until U.S. forces are 
withdrawn at the end of 2011.
    In Southeast Asia, al Qa'ida has always been attracted to 
the large population of Muslims in the region. Long before the 
attacks of 9/11, they sought to exploit Jemaah Islamiyah, an 
organization led by Indonesian extremists with cells scattered 
across Malaysia, Singapore, Indonesia, and the Philippines. 
Their hotel bombings in Bali and Jakarta have killed hundreds. 
Despite these attacks, Indonesian forces have had significant 
success.
    The U.S. military counterterrorism commitment to the region 
is anchored by Joint Special Operations Task Force Philippines 
and supported by other training and assistance engagements in 
Southeast Asia.
    Mr. Chairman, again, I thank you for inviting me, and I 
look forward to your questions.
    [The prepared statement of Mr. Reid can be found in the 
Appendix on page 42.]
    Mr. Smith. Thank you. I appreciate that testimony, a very 
comprehensive look at what we are doing across the globe.
    Admiral Olson. I believe I will try to get Admiral Olson's 
testimony in, and then we will leave when he is done.

 STATEMENT OF ADM. ERIC T. OLSON, USN, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    Admiral Olson. Yes, sir. Thank you, sir. Good afternoon, 
Chairman Smith, Congressman Miller, and distinguished members 
of the committee.
    I do thank you for this opportunity to appear before this 
committee to discuss the threat posed by al Qa'ida and its 
associated movements and groups. And I am very pleased to join 
my colleagues, Ambassador Benjamin and Mr. Reid, today. We do, 
in fact, meet regularly in other venues on this and similar 
topics.
    With your permission, sir, I will submit a written 
statement for the record and open with a briefer oral 
statement.
    Al Qa'ida is unlike any other terrorist group that has 
threatened America or our interests. It combines exploitation 
of religion, nationalism, and perceived exploitation with 
violent action and extremist rhetoric in a way that has 
attracted thousands of recruits and made cult heroes of its top 
leaders.
    Al Qa'ida's goals are ambitious, employing a broad network 
to conduct local, regional and trans-regional operations 
intended to recruit, inspire and incite some, while 
intimidating and terrorizing others in order to dominate 
territory and control the population. This provides safe havens 
that then serve as training areas and bases of operations to 
launch attacks and expand influence.
    Originally operating almost exclusively from within 
Taliban-controlled Afghanistan, al Qa'ida has expanded and 
become geographically dispersed over the past eight years since 
it was substantially pushed out of Afghanistan into western 
Pakistan in the opening weeks of Operation Enduring Freedom.
    Al Qa'ida is now difficult to define. More than two dozen 
associated and adherent groups have established themselves in 
Iraq, the Arabian Peninsula, the Horn of Africa, the Trans-
Saharan region, the Maghreb of North Africa, West Africa, and 
Southeast Asia. And there are several different groups now 
operating within and from Afghanistan and Pakistan.
    Al Qa'ida's top leaders have proven elusive, and they have 
learned to use a variety of technical and non-technical means 
to communicate. And as you noted, Mr. Chairman, within the U.S. 
government's efforts to challenge and ultimately defeat al 
Qa'ida, the United States Special Operations Command has been 
designated as the combatant command responsible for 
synchronizing the Department of Defense's planning against 
terrorists and terrorist networks.
    We do this through a continuous series of virtual meetings 
across many government agencies. And serving in this role as an 
extension of the Joint Staff, we receive and review supporting 
plans submitted by each of the geographic combatant commanders, 
we prioritize the global requirements, and then we make 
recommendations regarding force and resource allocation.
    The United States Special Operations Command has also been 
designated as the Department of Defense lead for foreign 
terrorist financing and the DOD proponent for security force 
assistance. That means helping enable less capable countries to 
be more effective in addressing threats posed to them by al 
Qa'ida.
    The United States Special Operations Command's main 
contribution, though, is in the people-based capabilities we 
provide to operational commanders. The special operations 
force, with the support and oversight provided by this 
committee, is well positioned to meet the nation's highest 
expectations. When and where elements of special operations 
forces are properly employed, mostly in small teams and remote 
places, they are making a real difference against the al Qa'ida 
network.
    Certainly many rising al Qa'ida leaders have been killed or 
captured, and in many villages our people have provided non-
violent alternatives to al Qa'ida's presence, but there is much 
more to do.
    We must learn to better address recidivism, successful 
messaging, financing, training, smuggling and the acts of 
brutality that characterized al Qa'ida. And we must do these in 
partnership with or in support of other nations. All of this 
will require a comprehensive and enduring approach.
    Again, I thank you for the opportunity to appear before 
this committee, and I stand ready for your questions.
    [The prepared statement of Admiral Olson can be found in 
the Appendix on page 49.]
    Mr. Smith. Thank you.
    I think we are down to about two or three minutes on the 
vote. We are going to run and do that and then we will take 
Ambassador Benjamin's testimony. It is my hope that we will be 
able to be back in half an hour to 40 minutes. And we will try 
to get back as quickly as we can.
    [Recess.]
    Mr. Smith. I think out of respect for our witnesses' time, 
we will go ahead and get started. I know we had about 45 
minutes away there. So we will get started in the Q&A. Other 
members who show up can follow up on issues that they are 
interested in.
    So with that, we will turn it over to Ambassador Benjamin 
for his opening statement.

   STATEMENT OF AMBASSADOR DANIEL BENJAMIN, COUNTERTERRORISM 
             COORDINATOR, U.S. DEPARTMENT OF STATE

    Ambassador Benjamin. Mr. Chairman, distinguished members of 
the committee, thanks very much for the opportunity to appear 
here today. Thank you for casting light on this important set 
of issues. I have also already submitted a written statement 
and I will try to summarize that here.
    The attempted bombing of Northwest Flight 253, which nearly 
cost several hundred people their lives, was a close call. The 
president has rightly demanded reviews of and corrections to 
the key failures that lead to the incident.
    The event was a stark reminder that as the president stated 
recently, not withstanding our many successes against al 
Qa'ida, we face a nimble adversary. Moreover, the events of 
December 25th have shown that at least one al Qa'ida affiliate, 
not just the group's core leadership in Pakistan, has the 
potential and the interest to carry out strikes against the 
American homeland, yet we need to also make a sober judgment 
about the capabilities and status of al Qa'ida and its 
affiliates.
    The group has been under unprecedented pressure in the--
FATA, the federally administered tribal areas and continues to 
suffer significant setbacks and losses. Al Qa'ida and its 
affiliates have failed to mobilize large numbers of supporters, 
yet their continued ability to attract recruits and the 
technological savvy means that they continue to constitute a 
formidable foe.
    Let me look at a few key theaters. Al Qa'ida and 
Afghanistan and Pakistan, the beating heart of the global 
network remains located in the Afghanistan/Pakistan border 
region.
    The president has made clear that the mission of the United 
States in Afghanistan/Pakistan is to disrupt, dismantle, and 
defeat al Qa'ida and prevent its return to both countries. 
Despite the setbacks al Qa'ida has suffered, the Taliban and 
other extremist groups continue to provide it with support and 
it thus remains a capable and dangerous enemy, hence the 
critical importance of our military and civilian efforts in 
Afghanistan.
    A key element of these efforts against al Qa'ida will be 
the significant expansion of our support for Pakistan and its 
people. Our assistance will demonstrate the United States' 
commitment to addressing problems that affect both everyday 
lives of Pakistanis and bolster Pakistan against the threat of 
extremism.
    Pakistan is a frontline partner in our counterterrorism 
efforts and we are committed to working with it to defeat and 
dismantle al Qa'ida and counter the violent extremism that 
threatens both of our countries. Both nations are heavily 
invested in this relationship. And as General McChrystal noted 
earlier this month, the trust deficit between Pakistan and the 
U.S. Forces has been shrinking.
    Al Qa'ida in the Arabian Peninsula, AQAP, claim credits for 
the Christmas day bombing attempt. AQAP officially announced 
itself in January 2009, but the Arabian Peninsula is not a new 
front in our war against al Qa'ida.
    Indeed, al Qa'ida has had a presence in Yemen since well 
before the United States had even identified the group. In 
1992, militants who claimed allegiance to Bin Laden attacked a 
hotel in Aden--which was then housing American military 
personnel who were on their way to Somalia to support the U.N. 
mission. In the 1990s, a series of major conspiracies were 
based in Yemen, most of them aimed at Saudi Arabia.
    Following the attack on the USS Cole in 2000, the Yemeni 
government, with support from the United States, dealt 
significant blows to al Qa'ida's presence in Yemen through 
military operations and arrests of key leaders. During much of 
the subsequent period, the government of Yemen became 
distracted by other domestic security concerns, and our 
bilateral cooperation experienced setbacks.
    Next door, however, in Saudi Arabia, al Qa'ida attacks 
galvanized the government in the kingdom to dramatically 
improve its counterterrorism efforts. The downside of this good 
news story is that many of the radicals driven out of Saudi 
Arabia fled to Yemen, joining other fighters there. This is one 
of the greatest challenges of the contemporary threat: the 
ability al Qa'ida and its affiliates have to continually 
exploit poorly or ungoverned territories.
    Upon entering office, the Obama administration quickly came 
to understand that this al Qa'ida-related activity, as well as 
poor and deteriorating socioeconomic conditions, demanded a 
reappraisal of our Yemen policy. The U.S. government review, 
completed in November of 2009, has led to a new, whole-of-
government approach to Yemen that seeks to mobilize and 
coordinate with other international actors.
    Our strategy aims to address the root causes of 
instability, encourage political reconciliation, improve 
governance and build the capacity of Yemen's government to 
exercise its authority, protect and deliver services to its 
people.
    U.S. strategy towards Yemen is two-pronged: first, 
strengthen the government of Yemen's ability to promote 
security and minimize the threat from violent extremists within 
its borders; and two, mitigate Yemen's economic crisis and 
deficiencies in governing capacity, provision of services and 
transparency.
    As Yemen's security challenges and its social, political 
and economic challenges are interrelated and mutually 
reinforcing, so U.S. policy must be comprehensive and flexible 
in order to be effective in the short and in the long term.
    In the past year, the administration has maintained a 
vigorous tempo of senior-level visits to Yemen, most recently 
by General Petraeus, Deputy National Security Advisor Brennan, 
and Assistant Secretary Feltman, to press our concern about al 
Qa'ida's ability to operate from and within Yemen.
    This intensified engagement has paid off. In the last 
month, Yemen has conducted multiple air and ground operations 
designed to disrupt AQAP's operational planning and deprive its 
leadership of safe haven within Yemen's national territory.
    Yemen has significantly increased the pressure on al 
Qa'ida, and the United States commends the Yemeni government on 
these successful operations. We are committed to continuing 
support for an effective counterterrorism effort that will 
include both security and economic development initiatives.
    On the security front, we provide training and assistance 
to Yemen's key counterterrorism units. Through diplomatic 
security and antiterrorism assistance programs, we provide 
training to security forces in the Ministry of Interior, 
including the Yemeni coast guard and the central security 
forces' counterterrorism unit. In addition, we are working with 
the Defense Department, with whom we coordinate closely, to use 
1206 funds for counterterrorism assistance.
    The United States is determined to halt and reverse 
troubling socioeconomic dynamics in Yemen. Priorities for U.S. 
assistance include political and fiscal reforms and meaningful 
attention to legitimate internal grievances, better governance 
through decentralization, reduced corruption and civil service 
reform, and economic diversification to generate employment and 
enhance livelihood. These initiatives will contribute to the 
long-term health of our bilateral relationship and help allay 
suspicion and misunderstanding.
    Al Qa'ida in the Islamic Maghreb. AQIM continues to menace 
parts of the Maghreb and the Sahel. The group conducts low-
level attacks in northeastern Algeria and in the Sahel, and has 
killed a number of local military personnel, an American NGO 
[non-governmental organization] worker and a British hostage. 
AQIM elements have repeatedly targeted Westerners for 
kidnapping for ransom.
    We are encouraging greater coordination among regional 
states and France to frustrate AQIM's desire to establish 
itself in Europe. And we view the near-term likelihood of such 
an expansion of operations as diminished in just the last few 
years.
    Algeria's successful counterterrorism efforts have led the 
group to focus on the ungoverned areas of northern Mali and 
Mauritania. In fact, the group faces difficulties in 
recruiting, and in some parts of Algeria has largely worn out 
its welcome.
    Our regional partners value U.S. and other international 
assistance to build their capacity to disrupt terrorist 
attacks, better control their sovereign territory and counter 
those who advocate violence.
    For the foreseeable future, we view AQIM as posing a 
persistent threat in the Sahel, but it is less of a danger to 
stability than that posed by AQAP or al Qa'ida in the FATA. The 
group is financially strapped, and the increase in hostage 
taking is clearly an attempt to raise much-needed revenue.
    AQIM has failed to establish a viable presence in Morocco, 
Tunisia or Libya, and the Muslim populations of the Sahel and 
the Maghreb generally reject its extremism.
    East Africa. East African al Qa'ida, EAAQ, is composed of a 
handful of experienced operatives, who have maintained a safe 
haven in Somalia for years, and now have the increasingly vocal 
support of the foreign terrorist organization, al-Shabaab. 
Despite some key setbacks, most notably the death of EAAQ 
leader Saleh Nabhan in late 2009, the presence of these al 
Qa'ida operatives in Somalia continues to pose a threat to 
Somali, regional and Western interests.
    EAAQ maintains links to al-Shabaab, which has, in turn, 
publicly pledged its support for al Qa'ida, and is actively 
trying to overthrow the Transitional Federal Government and 
other moderates in Somalia.
    Al-Shabaab leaders have publicly threatened to target U.S. 
and Western interests throughout East Africa. Its forces have 
killed scores of civilians, including TFG [transitional federal 
government] ministers and foreign and Somali aid workers. They 
have stolen aid and greatly exacerbated Somalia's already dire 
humanitarian situation, even driving the United Nations World 
Food Program to cease operations in parts of Somalia earlier 
this month.
    Al-Shabaab has also managed to recruit an unknown number of 
foreign fighters, including some Americans.
    Our governance and counterterrorism goals in Somalia are 
clear, and they are mutually reinforcing: achieve a stable 
national government to help ensure that Somalia will no longer 
be exploited as a base of operations by foreign terrorists. And 
Somalia will not be stable as long as terrorist groups are 
active there.
    In addition to humanitarian assistance, the United States 
has been providing support--primarily through equipment, 
logistical support and training--to the African Union Mission 
in Somalia, AMISOM, and the TFG.
    The president has underscored that we must continue to take 
the fight to al Qa'ida and its allies wherever they plot and 
train. Doing that will require the military, diplomatic, 
intelligence and law enforcement resources of the U.S. and our 
allies.
    We must also look to what Deputy National Security Advisor 
John Brennan has called the ``upstream factors.'' We need to 
confront the political, social and economic conditions that our 
enemies exploit to win over new recruits, funders and those 
whose tacit support enables the militants to carry forward 
their plans.
    We know that violent extremism flourishes where there is 
marginalization and perceived or real relative deprivation. In 
recognition of this, my office has set up a unit focusing on 
countering violent extremism, which will target local 
communities most prone to radicalization.
    We must do more to address the underlying conditions for 
at-risk populations and improve the ability of moderates to 
voice their views and strengthen opposition to violence.
    In closing, Mr. Chairman, let me just say that the 
contemporary terrorist threat was decades in the making, and it 
will take many more years to unmake it. There is still much we 
need to learn, especially about how to prevent individuals from 
choosing the path of violence. But I believe we now have the 
right framework for policies that will strengthen security for 
our nation and the global community.
    Thank you very much for the invitation to speak here today, 
and I look forward to your questions.
    [The prepared statement of Ambassador Benjamin can be found 
in the Appendix on page 57.]
    Mr. Smith. Thank you.
    We will do the questions under the five-minute rule, just 
to keep it structured. And I guess the machine is here, so 
there we go.
    I guess my first question is following up on what you 
talked about at the end there, Ambassador Benjamin, because I 
believe that we have done a fairly effective job of targeting 
al Qa'ida's networks--the leadership of SOCOM [Special 
Operations Command], and cooperation of a lot of different 
agencies, you know, coming out of what JSOC [Joint Special 
Operations Command] did, starting in Iraq and more broadly.
    I think there is an excellent interagency process going on 
right now that has cooperation, that has targeted all of those 
different groups that you all mentioned, and I think really 
disrupted their leadership in an aggressive way, and also 
changed the way that they have to try to plan and coordinate 
their attacks. They are not too anxious to be talking on cell 
phones or working on the Internet now, or to even move around. 
And I think that is a very effective, disruptive tactic.
    The thing that sort of gives me the most concern is what 
you talked about at the end there, which is the radicalization 
issue. And this is something that, you know, we know that al 
Qa'ida is trying to--they try to find recruits that we don't 
know about, because that makes it easier to move forward. And 
they have had some success in that.
    And I think it is fair to say that, right now, throughout 
the Muslim world, they are having greater success with their 
message than we would like. Now, I think it is true that some 
of this has sort of backlashed on them. Some of the more 
violent acts have undermined support for al Qa'ida, you know, 
in Pakistan, Jordan, a variety of different places.
    But it is still true that, by and large, a disquieting 
number of Muslims, particularly the youth, you know, do have 
hostile attitudes towards the West and do agree with some of 
the, you know, central messages of al Qa'ida, that the West is 
at war with Islam. And they very aggressively propagate that 
message. We had an excellent hearing in this committee about 
how they use the Internet to spread that message.
    So, how we do the counter-radicalization, stop the 
radicalization, is very important. Two questions about that--
one, the interagency cooperation piece.
    As I mentioned, I think it works fairly well on targeting 
the top folks. I don't think we have gotten there on the 
counter-radicalization. You got a piece. I know SOCOM is doing 
some stuff. DOD is doing some stuff. A bunch of different sort 
of layers to this. The NSC [National Security Council] is 
looking at it in terms of their strategic communications 
message.
    Can you talk to us a little bit about how all those 
different pieces are going to come together better and have 
better interagency coordination?
    And then, what is the core message? What do you think the 
message is that is working right now, that is enabling al 
Qa'ida to recruit people like Abdulmutallab? And what is our 
best counter to that?
    So, it is sort of a three-part question there.
    Ambassador Benjamin. I will try not to go as long as my 
statement.
    Mr. Smith. Yes.
    Ambassador Benjamin. Well, you have asked, really, the core 
question about the future in the long term. And when I appeared 
before you some years ago, I probably, when I was out of 
government, probably said, we are terrific at the tactical 
part, at identifying terrorists and their facilitators, and 
taking them off the street. And we are having a harder time 
with really getting the strategic view and articulating a plan 
that will deal with the long term, because, as virtually 
everyone who has looked at this knows well, we are not going to 
shoot our way out of this problem.
    I think that one of the hallmarks of the Obama 
administration approach has been that we put radicalization at 
the core of our concerns. And we are thinking very hard about 
how we proceed in a way that, if we take one terrorist off the 
street, does not result in 10 more appearing in his place.
    And I do think it is true that al Qa'ida as a movement has 
failed to mobilize on a grand scale. And that is certainly a 
good news story. At the same time, are having not--they are not 
having problems in finding the recruits they need. And that, 
from a counterterrorism perspective, is a bad news story.
    You asked about the interagency. I think that, first of 
all, whenever we have looked at this as a government, what we 
do well and what we don't, I think that actually, the official 
version tracks very well with what some of us who were outside 
the government previously thought, which is that we didn't have 
the right approach on what is known as countering violent 
extremism, or perhaps on the even softer global engagement 
side.
    I think that there is a clear understanding across the 
interagency now that this is a very high priority, and that we 
need to coordinate better, and we need to make this a higher 
priority, and we need to put the resources against it to carry 
through.
    As I said at the end, there is still a lot we don't know 
about why people turn to violence. And we need more research on 
this. And there is a thriving, you know, research--there is 
thriving research going on within the academic community that 
we are studying. And there is also a great deal of research 
going on within the government.
    Public diplomacy and strategic communications clearly play 
a vital part in this in terms of reaching out to the large 
mainstream of the Muslim world that does not want to see 
violence at the heart of their faith. And I think that we are 
making a lot of progress there.
    Certainly, having President Obama's deep engagement on this 
issue has made a difference in terms of global engagement. And 
his trip to Turkey, his Nowruz message, his speech in Cairo--
all of these have made an important difference. And I think 
that they can make a lasting difference, if we follow them up 
expeditiously.
    What I would point out is that, countering radicalization 
specifically, it is in some ways a taller order, because we are 
not a trusted interlocutor for people who are on the verge of 
taking the path of violence. And that is why we have set up 
this CVE [countering violent extremism] shop within my office, 
to figure out what the interventions are that might be needed 
to deal with those at-risk communities.
    Specifically, what should we be doing in these 
microclimates, in a sense, to address the socioeconomic 
drivers? Because even though poverty doesn't cause terrorism, 
it certainly can be the case that----
    Mr. Smith. It provides recruits.
    Ambassador Benjamin. Well, it is certainly useful. It 
provides recruits, and it is useful as an instrument to others, 
who want to point to the deprivation as an indication of the 
truth of the al Qa'ida narrative. So we are looking at that.
    We are looking at other ways of enhancing the ability of 
moderate voices to be heard. There is a lot of collaborative 
work going on. We are working collaboratively with the NCTC 
[National Counterterrorism Center] and we will be innovating a 
number of new programs in the very near future that I would be 
happy to tell you about more once they have lifted off.
    Mr. Smith. Okay. Thank you.
    Mr. Miller.
    Mr. Miller. Admiral, you said in your opening comments that 
increasing recidivism rates are contributing to al Qa'ida's 
regeneration. Former detainees are rejoining the ranks of 
violent extremists.
    Do we know how many of these former detainees are from 
Gitmo, and if any? And are they currently regenerating into the 
terrorist networks? And if they are, are we tracking them? Do 
we have a way to track them?
    Admiral Olson. Yes sir, so we know there are some. I don't 
think we know precisely how many and different elements of the 
intelligence community would come up with slightly different 
numbers. I think the general sense is that probably on the 
order of a fifth are somehow re-engaging in some sort of 
activity that works against our interests. Our ability to track 
it is of course limited, but there are some efforts to do that 
with an element of the recidivists.
    Mr. Miller. Ambassador, you talked about the United States 
and I think you said we were not a trusted interlocutor. Who 
are the trusted interlocutors?
    Ambassador Benjamin. Well, if you are talking about those 
segments of communities that are closest to radicalization it 
may be people who espouse some ideas that we don't exactly 
embrace, but who are nonetheless trusted because of some 
overlap in values. And what I am suggesting here is that the 
critical issue for us is ensuring that these people----
    Mr. Miller. If I can interrupt, you specifically said the 
United States was not a trusted interlocutor. Can you name 
somebody who is?
    Ambassador Benjamin. Well, there are many clerics, for 
example, who will not be considered the United States to be a 
great friend of the Muslim world, but who will also be anti-
violent. And those people are, as far as we are concerned, very 
much working in our interest if they are turning people away 
from al Qa'ida.
    Mr. Miller. Would you name them?
    Ambassador Benjamin. There are quite a number of them----
    Mr. Miller. Well, you were very quick to say the United 
States was not a trusted interlocutor. I would hope that you 
would be just as quick to tell me somebody that was.
    Ambassador Benjamin. Well, I am not sure I want to 
undermine them by associating us with them. I would be happy to 
supply you with a list of such----
    Mr. Miller. I will be glad to hear it.
    Ambassador Benjamin [continuing]. Clerics.
    Mr. Miller. Sorry.
    Mr. Smith. Would the gentleman yield?
    Mr. Miller. Yes.
    Mr. Marshall. I believe Ambassador Benjamin made that 
statement within the context of trying to reach these kids 
mostly who are becoming radicalized. And I think your 
suggestion is that if it is----
    Mr. Miller. Well, if I can reclaim----
    Mr. Marshall. Yes.
    Mr. Miller [continuing]. My time because you mentioned the 
United States as a whole. Now you are talking about individual 
interlocutors. And that is why I am trying to figure out why--
is there anybody in the United States that is trusted to talk 
to these people?
    Ambassador Benjamin. Oh, I am sure that there are. For 
example, American Muslim spokesmen who would be--who would be 
trusted in this regard.
    Mr. Miller. Well, you do know the State Department pays for 
Muslim Imams to fly around the world and talk about what it is 
like to be a Muslim in the United States.
    Ambassador Benjamin. I am fully aware of that. But I am not 
sure that those programs are targeted at the communities that 
we are discussing.
    Mr. Miller. Oh, I am sure they are not. Not especially when 
they go to countries like Sweden, which I think is ridiculous. 
But I just--I find it kind of odd that you would single out the 
United States and then not be willing to say a country or a 
person. I just--maybe I just misunderstood you----
    Ambassador Benjamin. Well, I----
    Mr. Smith. If I could--I think you know making relatively 
minor and I think obvious point, and that is that the United 
States of America collectively is not particularly trusted in 
the broader non-U.S. Muslim world. So when we are thinking 
about ways to deliver a message----
    Mr. Miller. And my question is, name me a country that is.
    Ambassador Benjamin. I don't think we can name a country--
--
    Mr. Miller. But you said the United States was not. So 
there must be a country that is.
    Ambassador Benjamin. I am not sure that that logically 
follows, sir.
    Mr. Miller. I yield back.
    Mr. Smith. Mr. Marshall.
    Mr. Marshall. And thank you, Mr. Chairman. That is an 
interesting exchange. Obviously the United States acts through 
individuals. The corporate United States can't do anything 
independently. It is just a concept.
    And so I guess your point is that if an individual is seen 
as advancing the interest of the United States it is kind of 
difficult for that individual to be persuasive with somebody 
who is tending to get radicalized in this movement, which is 
wholly anti-United States. I guess that is your point.
    It is pretty obvious what our strategic interest is where 
the Hindu Kush is concerned, the tribal areas of Afghanistan, 
Pakistan. It is al Qa'ida central, has been identified as al 
Qa'ida central for quite some time. And Pakistan has nuclear 
weapons, nuclear technology and a history of exploiting nuclear 
technology. So we have got a real strategic interest here. That 
is quite clear.
    It becomes a little less clear what our strategic interest 
is as we sort of look around North Africa and elsewhere. You 
know, take AQIM, al Qa'ida in the Maghreb. That was a 
nationalist movement that was largely failing that couldn't get 
recruits, that couldn't get money.
    And so they said, ``Hey, we are al Qa'ida,'' and all of a 
sudden they can get recruits and they can get some money. And 
yet their behavior is largely the same. They are doing exactly 
the same thing that they were in essence doing beforehand, just 
sort of robbing people and making a living off being--of 
kidnapping people, things like that.
    And to the extent that we think we are going to somehow 
void weak countries, difficult economic circumstances across 
the board--across the world and that is going to solve our 
problem, that is pretty unrealistic, particularly given trends. 
We are going to have more weak states and more economic 
problems facing global populations.
    To the extent that every time somebody hops up and says, 
``I am al Qa'ida'' and we are going to run over there at a 
great expense to us, you know relatively, a very asymmetric 
relationship there, and attempt to shoot our way out of it when 
we all can see we can't shoot our way out of this.
    I find myself--I think it would be very helpful--oh, and 
also as we--as we jump to respond to each one of these little 
groups that says ``we are al Qa'ida,'' we sort of play into 
this notion that this is us against Islam because they just 
scatter themselves across all of Islam. And then all of a 
sudden we are present in all of Islam with gripes about the 
behavior of the local populous permitting these individuals to 
act the way they are.
    So I think it would be real helpful to hear from all three 
of you what you view are strategic interests with regard to you 
know all of these smaller areas that--that we are struggling 
with right now. And I would like to start with Mr. Reid.
    Mr. Reid. Thank you for the question. And it certainly is 
one that we also consider and think of the context of these 
various groups that we talked about here, and as you mentioned, 
Congressman, the AQIM and others.
    I think what I would first say is the al Qa'ida network 
that we described is comprised of these key allies. There is a 
number of elements we--I did not bring up today, mostly in 
interest of time, that are affiliates or lesser allies. But 
there are some core allies, and Ambassador Benjamin and I both 
talked about most of those in our statements.
    And I think the--if you look at Yemen as an illustration of 
what we don't know about where the next attack could be coming 
from. So I agree that the--everything you said about the AQ 
core and the relevance----
    Mr. Marshall. What worries me a little bit is that----
    Mr. Reid [continuing]. Of Pakistan.
    Mr. Marshall [continuing]. There are lots of places in the 
world, including within the United States where somebody could 
decide that they are going to do something awful----
    Mr. Reid. Oh, absolutely, sir.
    Mr. Marshall [continuing]. That we would object to. Back to 
what is the strategic interest?
    Mr. Reid. Well, and I would say, sir, what I was leading to 
there is these other areas, particularly trans-Sahara, the Horn 
of Africa and the remote areas of Yemen provide an opportunity 
and a potential pathway of shifting the locust of attack 
planning against us, which does cut into our strategic interest 
and allows the core to continue to operate.
    So a comprehensive approach to network defeat has to 
consider these alternate locations because they do have 
potential.
    Mr. Marshall. Admiral Olson----
    Mr. Reid. Yes, sir.
    Mr. Marshall. I am running out of time.
    Admiral Olson. Sir, I think the fundamental strategic need 
is defense of the homeland. And that requires prevention of the 
development of safe havens from which attacks against our 
homeland where our vital interests can be launched.
    I would say that a group cannot self-declare effectively an 
allegiance to al Qa'ida and through simple self-declaration 
become a group of high interest to us. There is a careful and 
deliberate, quite precise process through which a group is 
designated by our government as an al Qa'ida affiliate, which 
then leads to a prioritization and some investment against that 
group. But our preference is always to work through the host 
nation, through supporting the development of capabilities 
within that nation to deal with its own problems.
    Mr. Marshall. My time is----
    Mr. Smith. I think we will come back to you in the next 
round. We should have time to get to that. I want to make sure 
we get to the other members and give them their fair allotment 
of time.
    Mr. Conaway.
    Mr. Conaway. Well, thank you, Mr. Chairman--I want to 
apologize for missing your opening statements here----
    Ambassador, the real issue in my view is radicalization. 
And it seems spectacularly presumptuous of us as non-Muslims, 
non-Islamic that we have the solution for that. If you look at 
the guys who attacked the airport Heathrow, doctors, educated 
Brits raised in the system, Hasan and Fort Hood, grew up as an 
American, all the advantages.
    Then you look at the ones who come out of these 
impoverished areas and ungoverned spaces. What causes that and 
how are we addressing it?
    Because it seems to me this is an Islam problem. It is 
their deal. We are caught up in it. We are collateral damage, 
so to speak. And your answer to a similar question it was not 
until late in your answer that you used the word cleric or 
Muslim.
    And it is troubling that given it is their problem really--
now I don't think that Christians or Americans remotely have 
the best ideas as how to counter radicalization--that it would 
be that late in your quote--in your answers that we wouldn't be 
engaging, for the lack of a better phrase, moderate Muslims.
    Because to me that is who has got to solve this 
radicalization problem are the moderate Muslims. They have got 
to stand up. Many of them are, and some that you have 
mentioned. But there is a comment on that.
    And then broader question is, what is the Saudis' attitudes 
towards Yemen AQAP because it seems to me they are equally 
disposed at going after Saudi as they are us. And what is the 
Saudi's attitude in their help with us in this arena?
    So any of the three want to pitch in on that.
    Ambassador Benjamin. Sir, I don't disagree with you about 
the need for--the aspect of this that is religious to be hashed 
out between fellow believers. And that is why it is vitally 
important that we create more political space for moderates, 
that we find ways to constrain the environment in which 
radicals operate so that people believe that it is not in their 
interest to having--to have terrorists, to have radical 
extremists operating in their neighborhoods, in their cities, 
in their----
    Mr. Conaway. That would be Alexandria, Virginia, where 
Major Hasan grew up?
    Ambassador Benjamin. Well, for example, quite clearly from 
the reviews we have seen there were failures in not noticing 
the kind of radical influences that he was espousing.
    And one of the things that we are looking forward to over 
the long term is creating environments in which people take 
seriously radical statements and consider that to be their 
problem as well, and begin to confront that and find 
interventions, whether it is clerical, therapeutic or of some 
other kind. That is one of the ways that we are going to tamp 
down radicalization. And there are many different ways that we 
are going to have to get at that.
    But I think the key thing is to help other countries and 
communities that have a radicalization problem to create the 
structures in which they contain it, identify it and defeat it 
really. You asked about Saudi Arabia.
    Saudi Arabia is every bit as concerned if not more 
concerned about AQAP. Remember their deputy interior minister 
is the head of counterterrorism was nearly killed several 
months ago by an AQAP attack that used a similar device to the 
one that was employed on the Northwest flight.
    Saudi Arabia is the country that has the most influence 
with Yemen, and they are working very hard to get the Yemenis 
to maintain their tough stance against AQAP.
    Mr. Conaway. Are they spending money in Yemen to support 
that government?
    Ambassador Benjamin. According to press reports on the 
order of a billion dollars or more annually. And again, those 
are----
    Mr. Conaway [continuing]. Having been to Sana'a recently I 
wondered where the money went.
    Ambassador Benjamin. Well, you know, this is a country that 
has enormous economic needs, including simply budget support 
and they--and also training of their security forces. So it is 
not news that the economic requirements of the government of 
Yemen are rather large.
    Mr. Conaway. Quickly, anybody, where is the next stop on 
this train for AQ, et al, around the world? If we drive them 
out of Yemen, where do they go next?
    Mr. Reid. Just to go back to the earlier point, I think we 
do have to identify and address in advance these potential safe 
havens. And some of these operations and engagements we have 
talked about today get to that. They have telegraphed us 
already with their interest in areas like Somalia and out in 
the Trans-Sahara Desert. So I believe those are some very 
likely places and that supports our interests in those areas, 
as we already discussed.
    Mr. Conaway. Any of those particular places in the Western 
hemisphere, South America or somewhere?
    Ambassador Benjamin. I think there was a period of time in 
the 1990s when we were quite worried about radicalization, 
particularly in the tri-border region in South America. But the 
countries in that region have done quite a good job, I think, 
at containing and diminishing the threat there.
    And that points to a larger issue, which was in response to 
the earlier question, which is that however we define our 
strategic goal, the key part of the answer is going to be 
capacity building because al Qa'ida and its affiliates are 
going to show up in many, many different places. And we need to 
have a strategy for enabling those who are in those regions to 
confront their threats and deal with them because we cannot be 
everywhere all the time. And we cannot fall into the trap of 
expending enormous amounts of treasure running to wherever, as 
Admiral Olson suggested. They just declare that they are there.
    Mr. Smith. Yes.
    Mr. Bright.
    Mr. Bright. Mr. Chairman, thank you very much for this 
hearing--very worthwhile.
    And, gentlemen, thank you for your presence here today and 
your testimony. And my colleague pretty much asked my question. 
But I am going to probably phrase it a little differently and 
see if I can get a little more information. But quite frankly, 
I am not sure the al Qa'ida--if this is a tactic or a strategy 
that they have implemented. And that is striking at different 
locations.
    South Asia initially was the primary place that we were 
engaging. Now the Arabian Peninsula in Yemen is the other place 
that we are addressing now. If either one of you had a 
prediction based on your expertise and your knowledge, where do 
you think the next area might develop to be and for us to be 
watching out?
    And I guess my question is two-part. What specifically are 
we doing to find out, number one? And then once they appear, 
what are we doing to contain or eliminate them? Anyone.
    Mr. Reid. Sir, I would say it is a strategic effort, in my 
view, and declared by al Qa'ida as their strategic objective to 
establish some degree of control in the area between Mauritania 
and Southeast Asia, Indonesia, as you describe, sir. And so, 
when they lay that out several years ago and say this is our 
strategic intent and then they start setting up these 
enterprises--and they are dots along the map all in that area, 
I think you have to take it for what it represents. So I do 
think it is a strategic effort.
    And it doesn't have the same level of success in every 
area. What we can do to learn more about it goes back to what 
Ambassador Benjamin just mentioned. And that is to strengthen 
the security capacity and institutions of our partners in those 
areas. And that is where our Department of Defense efforts are 
focused, in the security force assistance realm across many of 
these countries and regions we have discussed today.
    We have been engaged for many years in training, equipping, 
advising and helping these countries build up a force that is 
capable of dealing with terrorism. Very many of them have never 
organized their defense or security forces around that type of 
threat. And as we ourselves have learned over many hard years 
of war, it does take an adaptation of your armed forces to 
optimize against that threat.
    Mr. Bright. Sure.
    Anyone else, either?
    Admiral Olson. Sir, I would just reinforce the stated 
strategic goal of al Qa'ida is the reestablishment of the 
Caliphate in the areas that you mentioned. And the 
decentralization of al Qa'ida is an element of the execution of 
that strategy. So I think we are talking less about where next 
and either trying to move ahead of them or chase them to that 
place. But it is really the notion of applying pressure 
wherever they are with persistence, preferably through the 
government of the nation that is currently serving as the 
location.
    We have not been successful in predicting absolutely where 
the next attack on the United States would be launched from. We 
know where al Qa'ida is, but we don't know--in many cases, but 
we don't know for certain which element of al Qa'ida is the one 
most ready to launch an attack against us.
    Mr. Bright. Okay.
    Ambassador Benjamin, anything? Any additional----
    Ambassador Benjamin. I think Admiral Olson and Secretary 
Reid have captured it quite aptly. I would say simply two 
things. One is that we should never be complacent about the 
possibility of radicalization within our midst. And the trickle 
that we have seen of people who have gone to East Africa to 
fight and who have become radicalized there ought to be cause 
for concern.
    We are certainly not immune. The same holds true for 
Western Europe, which has also seen occasional cases of 
radicalization. And there are a number of people who are 
training in the FATA who come from those countries.
    I would also say that among the things that keeps me up at 
night is not so much a new geographic theater as a different 
form in the theaters that we are acquainted with. And so, for 
example, the emergence of a group like Lashkar-e-Taiba as a 
global threat based in South Asia is something that concerns me 
greatly.
    Mr. Bright. Thank you very much, Ambassador.
    Mr. Chairman, I yield back my time.
    Mr. Smith. Thank you.
    Now, a couple questions on the recidivism front. First of 
all, Saudi Arabia has a program they talk a great deal about 
where they take people who have been part of al Qa'ida and then 
try to reform them. You know, this program is used in a variety 
of different places.
    Now, it has some obvious limits. I mean, the thought was 
the Jordanian who was the suicide bomber who killed our CIA 
[Central Intelligence Agency] agents had been one of those that 
had been reformed early on. I know Saudi Arabia was pretty much 
saying, you know, it has got a 100 percent success ratio. I 
question their statistical analysis.
    Have you worked--I guess I will start with Mr. Reid--more 
closely at that to see about whether or not whether it is Saudi 
Arabia or Yemen, or any of these countries that some of these 
people have shown up in, have they had any success in actually 
reversing it once people have been radicalized? And if so, how 
has that worked?
    Mr. Reid. Sir, I would just note that it is quite possible 
as people are being released this far into the war that those 
that have been held the longest probably are the most hard-
core. And it sort of elevates the potential of the recidivist 
phenomenon.
    Logically those released earlier----
    Mr. Smith. Right.
    Mr. Reid [continuing]. Were presumably guilty of less or 
less along the spectrum. So I think that is a factor as we look 
at the timelines and the increases. I think we have to consider 
that there is some logic to that. And I think it speaks to the 
careful consideration that is given for further releases.
    As to the Saudi program, from all that I have seen, sir, it 
is generally a successful program. Clearly, one is too many 
when it comes to someone like al-Rimi or one of these 
characters that is currently fighting us.
    But among those that we work with, it has shown great 
success. And they do invest quite a bit in it. And they have 
offered to help us form these programs elsewhere. But I do just 
think that one point about this group of people we are dealing 
with is going to spike those numbers.
    Mr. Smith. You mentioned we are sort of rethinking our 
policy on when to release detainees in light of some of what we 
had learned. Can you spell that out a little bit more clearly? 
How have we changed that in recent months?
    Mr. Reid. Well, as you are likely aware, sir, the president 
did after the release in mid-December of--of detainees into 
Yemen call a halt to that, to review in particular the Yemeni 
problem. And it is a problem that we have been dealing with for 
several years in trying to find a way to release them.
    Overall and broadly the system is well-developed. And it is 
an interagency system with a great amount of discussion and a 
great amount of review from all angles about the risks of 
release. And the factors go into what we know about the 
individual, what population or what country we intend to 
release them in, what the likelihood and the risk factors are 
there. And they are all very carefully considered in every 
decision to release.
    Mr. Smith. Okay.
    Do either of you want to comment on that at all?
    Ambassador Benjamin. I would just add that one of the key 
considerations is now and will continue to be the ability of 
law enforcement and intelligence services in those countries to 
monitor those who are being released and that that is something 
that I know that the interagency process looks at very 
carefully now. And that will continue to be the case because, 
quite frankly, a 100 percent non-recidivism rate is likely 
unattainable.
    Mr. Smith. Right.
    Ambassador Benjamin. So it is going to be important that we 
have capable partners who are going to be able to deal with the 
threats within their borders.
    Mr. Smith. Absolutely.
    Follow up a little bit on--I think Mr. Marshall had raised 
the issue of our, you know, footprint as we go around. Every 
time someone pledges allegiance to al Qa'ida, we don't want to 
show up in force.
    But I think that one of the strengths, certainly, of what 
SOCOM and what some of the other agencies have done is where we 
see threats in a variety of different places, we can deal with 
them with a very light footprint. In fact, I think going 
forward when you look, you know, Iraq, Afghanistan, those would 
not be the models of how we hope to be able to operate in the 
future, that we can do it working with the host nations in a 
cooperative fashion.
    And I know, Admiral Olson, to the degree in which you can 
get into this, can you talk a little bit about, you know, how a 
light footprint can, in fact, make a big difference on 
stopping, you know, radicalization or stopping a terrorist 
haven from being created in a given place?
    Admiral Olson. Yes, Mr. Chairman, I could certainly answer 
that to the degree. The light footprint is really for a couple 
of different reasons. One is to gain an understanding of the 
place and the people there so that we can just learn better 
about what motivates--what may motivate elements of that 
society to select an al Qa'ida path. And what might motivate 
them to select an alternative to that.
    But most of our presence in sort of what I call moving 
ahead of the sound of guns is a train, advise, assist kind of a 
presence. It is working mostly with counterparts, mostly at the 
small unit level, mostly for the purpose of enabling them. And 
the military and then the law enforcement realms to provide 
better for their own sovereignty and their own security.
    It is difficult to measure success by what doesn't happen. 
But you are--I would second what you said, that there is known 
value to what it is we are doing in relatively small footprints 
around the world.
    Mr. Smith. Thank you very much.
    Mr. Miller.
    Mr. Miller. Ambassador, I was looking through your remarks. 
And I just--if I can, attempted bombing of Northwest Flight 253 
that may have resulted in the death of several hundred people, 
efforts to strike us, al Qa'ida militants attacked a hotel, 
attack on the USS Cole, al Qa'ida attacks, repeatedly targeted 
Westerners for kidnapping for ransom, have killed a number of 
local military personnel and an American NGO worker and a 
British hostage, carry out attacks and kidnappings. Hostage-
taking is clearly an attempt to raise revenue. Its forces have 
killed scores of civilians.
    And then you say the president has confirmed that we must 
continue to take the fight to al Qa'ida and its allies wherever 
they plot and train. That includes exploiting opportunities to 
bring al Qa'ida's operatives to justice by presenting them 
before a court of law.
    That scares the hell out of me. Is that supposed to scare 
people that will cut your head off and take you for ransom and 
blow up ships and--I mean, you don't--the courts of law.
    Ambassador Benjamin. As it says in my statement, sir, we do 
use the entire range of different capacities to target 
terrorists. I believe the passage that you are referring to 
actually talks primarily about our partners having the law 
enforcement capability to try terrorists within their 
countries, which we have found as an empirical matter to have a 
very powerful effect in terms of discouraging radicalization 
because the experience of terrorists being taken into court and 
treated like ordinary criminals and de-glorified, as it were, 
from the kind of cosmic warrior or holy warrior image that they 
have, is a very humbling one.
    And I submit that the example of a country like Indonesia, 
which under our--with our advice--instituted a number of very 
important counterterrorism laws, and has used a law enforcement 
approach, among others--they have killed quite a number of 
terrorists--has been extremely successful in terms of tamping 
down radicalization within their borders.
    The Saudis also use a law enforcement approach within their 
borders. And I would submit that many people would say that 
their rehabilitation system is even softer than their court 
system.
    So I think that we need to be flexible in how we approach 
these matters. We have, I think, by in large encouraged our 
counterterrorism partners around the globe to strengthen their 
rule of law institutions as part of a broader counterterrorism 
effort, and they have been very successful.
    Mr. Miller. But your statement says doing that will require 
the military, intelligence, and law enforcement resources of 
the U.S. and the allies. So it is not just the courts of our 
allies. You are talking about the courts of the United States 
as well, are you not?
    Ambassador Benjamin. Well, I certainly support the attorney 
general's decision to try people in American courts. I think 
that this is a vindication of our system and this is an 
appropriate response to the threat we have at hand. I do not 
suggest by any means that the only response to terrorism is to 
insist on the capture and arrest and conviction of terrorists.
    There are many terrorists who are far beyond our ability to 
capture. I work very closely with Admiral Olson and Secretary 
Reid to deal with the others, but I certainly think that a law 
enforcement approach has to be part of the arsenal that we use.
    Mr. Miller. Do you think we should kill them?
    Ambassador Benjamin. I think that when it is appropriate we 
should target terrorists with lethal force, absolutely.
    Mr. Miller. What about military tribunals?
    Ambassador Benjamin. The administration has decided that in 
some cases tribunals are an appropriate approach. I am not the 
attorney general, but I will certainly bow to his authority and 
his counsel on this and to the president's.
    Mr. Miller. You would bow to the Attorney General?
    Ambassador Benjamin. Yes, I would--happily.
    Mr. Miller. Defer?
    Ambassador Benjamin. Yes.
    Mr. Miller. Okay, thank you, sir.
    Mr. Smith. Mr. Marshall.
    Mr. Marshall. I guess I have to observe the questioning of 
my good friend, Mr. Miller, who really is a good friend of 
mine, that as I recall--and I know far more than I am free to 
say--but certainly all Americans know that we are prepared to 
hit these people and kill them.
    And we are doing that, and we are doing it weekly. We are 
doing it not only in Pakistan, but we are doing it elsewhere. 
And it is not as if we are reluctant to do so. In fact, what we 
worry principally about is what sort of collateral damage are 
we going to cause once we have identified a target that is 
really on our list. Can we go ahead and kill that target? So, 
the range of things that we are attempting to do.
    Back to the strategic interests. You know, Admiral Olson, 
obviously the goal is to protect the United States, United 
States' interests, United States' citizens. The question is the 
strategy that we adopt--in furtherance of that goal. We 
wrestled for a while there with how we should approach 
Afghanistan.
    Should there be a troop buildup? And, concluded that the 
appropriate--we knew what our strategic interest was. The 
appropriate strategy here was to go ahead and build up the 
capacity of the Afghan people to deal with this threat 
themselves. That wasn't going to happen without a buildup of 
troops for us, so we are building up troops.
    And that we had a real strategic interest--a unique 
strategic interest--because of the fact of Pakistan and al 
Qa'ida central and nuclear technology, et cetera. We are not 
suggesting that we apply the same strategy globally. And it 
certainly is our hope that it is a lighter footprint.
    And it is certainly our hope that we have partnerships of 
partners out there, all of whom who have a strategic interest 
to further our interests in avoiding having somebody with a 
bomb in his underwear get on a plane and come to the United 
States. That is very minute police work.
    You get information about folks like that from local people 
who are willing to cooperate. Probably not with us, since we 
have some credibility issues right now, but with local folks. 
So we are building capacity and at the same time, we are trying 
to give people a strategic interest to help us out.
    Now, why would some of these countries have a strategic 
interest? How do we get them interested in helping us avoid 
underwear bombers?
    Mr. Ambassador, you----
    Ambassador Benjamin. It is actually----
    Mr. Marshall. To do that I think we are sort of fighting 
against their own religion, in a sense. They can be accused of 
that, and they can be exposed in many different ways. Those 
individuals who step forward to say yes, we do have a strategic 
interest in keeping people like this from hitting the United 
States.
    Ambassador Benjamin. I think that by and large the level of 
international cooperation in defending our selves and our 
allies against this threat is really quite good. And many 
countries--and we don't need to name them all--that would--that 
might criticize aspects of our politics, our policies in the 
world----
    Mr. Marshall. If I could interrupt, I don't have that much 
time. So let's take Yemen specifically and I think we would 
both have to concede that we cannot police the population of 
Yemen. Can't be done. Saudi Arabia could get closer to doing 
it. But certainly we can't do it. So what we would really like 
ideally is for somebody within Yemen to police Yemen. So how do 
we get them strategically interested in doing that?
    Ambassador Benjamin. Well, I think that the experience of 
the last few months is indicative, in that repeated engagement, 
the offer of assistance, and I mean high level engagement. The 
offer of assistance to deal with this critical issue, which 
they have come to realize threatens them. This is the 
combination of incentives.
    And when you bring together different members of the 
international community, such as Saudi Arabia, such as the UAE 
[United Arab Emirates], in their neighborhood, as well as the 
Brits--and others----
    Mr. Marshall. If I can interrupt?
    Ambassador Benjamin. Yes?
    Mr. Marshall. So we are going to pay them, in a sense, to 
do this for us. And do we create an environment as a result of 
taking that approach, in which for decades if you give us 
enough money, we will keep the militants down? If you give us 
enough assistance we will keep the militants down?
    Ambassador Benjamin. I don't think that is correct. We are 
not paying them. In fact, we do not give them cash subsidies. 
Our assistance to Yemen is directed on the humanitarian side, 
on the AID [Agency for International Development] side of 
things. It all goes through non-governmental organizations.
    Mr. Marshall. So incentives that you are discussing?
    Ambassador Benjamin. Yes. Obviously there are incentives on 
the security side.
    Mr. Marshall. I was using the shorthand. Somehow we are 
going to help them.
    Ambassador Benjamin. But it is also a matter of persuasion 
and of showing them the extent to which the threat--that they 
are targeted as well. And I am sure that part of the 
government's move toward a more effective stance against al 
Qa'ida was conditioned by the targeting of their own 
intelligence officials and others within that society, and that 
they have come to see that this endangers them.
    They are not in alliance with al Qa'ida in the Arabian 
Peninsula in any way, shape or form. And this is really about 
dealing with a threat to Yemeni stability.
    Mr. Marshall. I understand that. But the underwear bomber, 
how does the underwear bomber play into their strategic 
interest, which I think in fact is what you have identified. 
They are threatened as well.
    Mr. Smith. If I could----
    Mr. Marshall. I apologize. I am way over.
    Mr. Smith. If I could move it along.
    Mr. Conaway.
    Mr. Conaway. I have just one real quick one. Monday AQAP 
released a statement that said jihad against the infidels and 
their agent helpers, not only on the ground, but in the sea and 
in the air, as well as their crusader warships in the Gulf of 
Aden--Winston Churchill-esque of them--but in this setting, 
Admiral, can you talk to us about the legitimacy of that 
statement? Is that just puffing, or is that what--could you 
talk to us about in general about that statement?
    Admiral Olson. Sir, my opinion would be that there is 
certainly an element of puffing in there, but we can't dismiss 
the threat. They have demonstrated the ability to strike from 
Yemen, including strike at sea from Yemen. So I think that we 
have got to take what they say seriously, although it is in 
their own interests to inflate their capabilities.
    Mr. Conaway. Yes. And then, our planning and response goes 
without saying, but you need to say it anyway for the record. 
That we are in fact planning those kinds of responses necessary 
to counter that kind of nonsense?
    Admiral Olson. Sir, the response clearly depends on what it 
is we are responding to. But the government of Yemen has 
demonstrated a willingness recently to go after al Qa'ida on 
its own. And our response, to the extent that it is possible, 
will be in support of the Yemeni government.
    Mr. Conaway. But if they came after one of our warships--I 
have to believe the crusader warships are--is code for great 
ships of ours?
    Admiral Olson. Self-defense is the fundamental rule at sea.
    Mr. Conaway. Yes. One last quick one. The remaining 200 
detainees, would you expect the recidivism rate of that group, 
given who they are and what they have done in the past, and 
their track record would be higher than recidivism rates in the 
first crew we let go, just in general?
    Mr. Reid. Congressman, I don't have a deep knowledge of 
each case, but I would not----
    Mr. Conaway. Well, we have saved the worst for last here.
    Mr. Reid [continuing]. Expect that all of them would be 
released. There is a population within that that are not 
intended to be released, and that goes to the long term post-
Guantanamo detention solution that the administration's 
working. There is not an intent, that I know of, that every 
person that is currently held will be released----
    Mr. Conaway. Is it fair to say that these are the worst of 
that 700 that were there?
    Mr. Reid. I certainly think it is logical that the worst 
would be the last released, sir, yes, sir.
    Mr. Conaway. Okay. I will hand it back. Thank you, 
gentlemen. Appreciate it.
    Mr. Smith. One more question, but then I want to make a 
couple of points before I make it. First of all, I want to make 
sure that it is very clear that the decision on where to hold 
the people who are currently in Guantanamo is one of the things 
we are debating, we have no intention of simply releasing them.
    In fact, whether Guantanamo remains opened or closed has no 
impact whatsoever on how many of these people are going to be 
let out. It simply isn't part of the discussion. And I think 
that has been mixed up a number of times in public debate.
    Mr. Conaway. If the gentleman would yield?
    Mr. Smith. Certainly.
    Mr. Conaway. The point I was making though is we give these 
folks to others who have great intentions on the front end of 
detaining them for as long as we might, we run the risk that 
regime changes, bribes, whatever the corruption, cause these 
folks to get out.
    Mr. Smith. Again, I mean, you know, we have transferred 
hundreds of these people from Guantanamo under the previous 
administration, and I think the decision not to release them to 
Yemen any more is a reflection of the fact that that didn't 
always work out.
    And again, even whether or not we released these inmates to 
other countries, that is--the decisions would be the same 
whether Guantanamo was open or closed. If that person is 
perceived to be a risk to be released to that other country, 
they will not be released, whether they are held in Guantanamo 
or held someplace else. And that is a tricky balance, I will 
grant you that.
    And certainly in the past both administrations have 
released people that later returned to the battlefield, and we 
are going to take steps to change that policy. And we have 
released some people to countries where we thought they were 
going to be held, and they weren't held, as well. So we have 
learned from that experience and we will hold them. But again, 
that is a separate issue.
    And returning a little bit to Mr. Miller's points about 
holding people in civilian court and trying them and convicting 
them. That is one piece of the broader strategy. And whenever 
those issues come up, you seem to get the impression from the 
people questioning them as if that is all that we are doing. It 
clearly is not.
    This is a comprehensive strategy. And a huge element of 
that comprehensive strategy has been to target and eliminate 
leaders in various al Qa'ida groups across the globe. And we 
have been statistically more aggressive in doing that in the 
last year than under any year since 9/11.
    So we have not backed down in the least bit under the idea 
that there are some people who threaten us who we don't have 
the opportunity to bring them to court and we will use whatever 
means necessary to make sure that they do not threaten us. 
However, there is value to bringing these people to justice.
    To trying them, convicting them, and locking them up. And 
if that is available, if that is a piece of it, then that we 
must do. There has been this false dichotomy like well, either 
we are at war or this is a law enforcement issue. And I can't 
believe we are still having that conversation, because anybody 
who is paying any attention knows that the answer to that 
question is it is both.
    It is obviously both. These people threaten us in a variety 
of different ways, some of which call for a law enforcement 
mechanism and some of which call for a military action. And I 
can't believe that even the former vice president would 
disagree with that basic assessment. It is both, and then it is 
a matter of how you choose to do both and how smart you are in 
implementing that policy.
    And we are all learning, and getting better at it. But 
there is an absolute commitment I know from this administration 
to do what is necessary to make us as secure as possible and to 
weigh all of those options appropriately.
    The question that I have has to do with something that is 
concerning us. There were some earlier questions from Mr. 
Marshall about these various groups, al Qa'ida in the Maghreb, 
AQAP, al-Shabaab--and I think a lot of these groups started out 
with purely local concerns.
    Certainly that was the case in Algeria. They didn't like 
the Algerian government. It was a revolutionary effort. And I 
think it would be a mistake to treat those people as part of a 
broader global thing and give them greater importance than they 
have.
    But what has seemed to be happening with these groups is 
they seem to have gone from being local groups to being more 
invested in the broader jihad. And we have even seen that with 
the Pakistani Taliban, Baitullah Mehsud.
    These were groups that had local grievances, but all of a 
sudden decided that they were at least publicly going to state 
that they were trying to do broader attacks. Certainly, that 
has happened in Yemen. I think we have some evidence that al-
Shabaab is talking in the same way. AQIM to this point has 
confined themselves within their region, but has in fact 
started to attack westerners. Tell me a little bit about, you 
know, what our analysis is of these various, you know, 
localized groups' thinking and why we think they may suddenly 
now be willing to do these broader outside of the area 
attacks--if that, you know, portends of a broader trend that we 
need to be concerned about and try to confront.
    Mr. Reid, I'll let you take the first crack at that?
    Mr. Reid. Yes, Mr. Chairman. Thank you.
    I think there are two things that you have to consider in 
this, and one of these is just practicalities. And as the core 
element has lost the--certainly the degree of movement and 
communications and financing that it had pre-2001 up till now, 
they have called upon the affiliates to take more action, and 
even to the extent that the affiliates are being looked at to 
raise revenue for the core instead of vice versa, as it used to 
be.
    So I think that is a factor in why we see them doing that.
    Mr. Smith. Sorry to interrupt, you know, why would they do 
that? Why would a group that is, you know, who want to 
overthrow the Algerian government--what is sort of the 
different reasonings that would make them, because it seems to 
me it would be sort of counter their certain, you know, stated 
and focused goal of, in many cases, years, if not decades, to 
all of a sudden start, you know, doing the broader approach? 
Why would they view it in their interests to make that 
transition?
    Mr. Reid. I would agree with you that it ought to be 
probably viewed as a miscalculation on their part. And I think 
it speaks to back too, I believe, Mr. Marshall's question about 
how do you divide this. And they have weakened their brand, 
weakened their ideological strength across the network by 
expansion.
    And, again, I think there is practical needs, but I also 
think there are certainly plenty of indicators of the stature 
that bin Laden and Zawahiri hold within these movements is 
powerful. And there are these leaders and sub leaders that want 
to gain in stature by aligning with them and pledging loyalty 
to them. And it only takes one or two in these movements to 
generate this type of activity.
    So I think there is a gaining favor and gaining stature and 
credibility as a jihadist aligning yourself with the core. And 
then there is the practical side of revenue generation and 
recruitment. And they--when they do an attack, it generates 
more recruits. And I think that is part of it.
    Now, with the great strategy, however, it has to be looked 
at as part of their overall effort to attack at us, to make us 
look weak, to strengthen themselves and to spread out over 
time.
    Mr. Smith. I will--I am going to--sorry. I am going to let 
Mr. Marshall get back in here, and I will let you answer that 
question, as I have gone over time. You can turn this off and--
go ahead.
    Mr. Marshall. Well, why don't we just--what do you think 
about just sort of opening it up to, you know, mutual 
questioning. You can interrupt any time you want to. I will 
understand.
    Mr. Smith. Yes, go ahead.
    Mr. Marshall. So just taking AQIM as an example, faltering 
effort, hard to persuade people to join, those who are--you 
know, they attempt to recruit, sort of look at their--you know, 
the circumstances of AQIM as a nationalist movement, a 
secessionist movement, a rebel movement, and an Algerian now 
comes and says, ``Well, why would I be interested in that?''
    And you change it to al Qa'ida, and all of a sudden there 
is an interest, and new life in a sense is breathed into the 
operation. And those folks who have been at it for while don't 
know any other life. Part of the problem with the folks that we 
returned to--that we let out of Gitmo or wherever, this is what 
they do. This is how they make their living. And in economies 
like the ones that sort of foster this kind of problem, there 
is not much else they can do to make a living, so recidivism is 
no big surprise.
    What worries me is if we sort of get suckered into it, and 
we acknowledge that this is a key strategic interest of the 
United States, well, then that is confirming and somehow 
elevating their status. And yet we also can see there is not a 
whole heck of a lot that we can do about them. The locals are 
going to have to deal with that. So all of a sudden this is an 
almost heroic Robin Hood-like group that we have defined now, 
which makes it more difficult for the locals to deal with that 
Robin Hood-like group.
    And so again, I am back to, you know, sort of what is our 
strategic vision here and how we are--I just want to make that 
observation.
    Mr. Smith. Sure.
    Ambassador, did you want to follow up--similar points 
there?
    Ambassador Benjamin. Yes, I view it as one large set of 
questions. I think Secretary Reid has touched on many of these 
points.
    I do think that this was for several groups an important 
step in branding. I think that they viewed the al Qa'ida brand 
as being a global attractive brand precisely because al Qa'ida 
had inflicted the damage of 9/11 on a superpower. It had 
attached itself, rightly or wrongly, to the glory of driving 
the Soviets out of Afghanistan, and so I think that they felt 
that this was a way of getting a shot in the arm for a--in that 
particular case of Algeria, for a group that was actually on 
the ropes.
    And, you know, it has not necessarily worked out very well 
for them, but you can understand how they made that decision. 
What I would also point to is that there are counter trends as 
well, and so----
    Mr. Marshall. Could I interrupt and ask you what you mean 
by it is not very--it hasn't worked out very well for them?
    Ambassador Benjamin. Well, I think that they did not 
attract the recruits or the finances that they expected from 
taking this plunge by associating themselves with al Qa'ida. 
And in fact, if anything, it drew greater attention from 
regional partners, from the United States and from others, who 
decided that they wanted to contribute to capacity building in 
the area in cooperation so that the--this group would be 
further diminished. And the fact is that as a force in Algeria, 
when it--which was a primary theater----
    Mr. Marshall. If what you just said--what you stated to be 
your belief that they didn't really get that much out of it, is 
that widely conceded by those who are actually working this in 
Mali and elsewhere?
    Ambassador Benjamin. That would be my assessment, but I--
you have two other experts here, so I will defer to them.
    Mr. Reid. I would agree that the GSPC [Groupe Salafiste 
pour la Predication et le Combat], and with everything 
Ambassador Benjamin said, they were greatly diminished by the 
Algerian force effort against them. And we don't see that it 
strengthened their hand, particularly with their movement by 
aligning with AQ.
    But what it brings to us is the added dimension of these 
external aspirations directed at us and our European allies. 
And they do have potential, and there are indications of their 
external planning that concern us. And that is what the AQ 
dimension brought to this group.
    We were very well focused on GSPC in trying to assist 
partners in the region before the merger. The TSCTP [Trans-
Sahara Counterterrorism Partnership] existed long before the AQ 
merger. So we see a situation where we are relatively 
succeeding against a group. Al Qa'ida comes in, tries to prop 
them up, take advantage of them and the situation, just like 
they took advantage of JI [Jemaah Islamiya] and Hambali in 
2001, 2002. This is their nature. And so I do agree that it 
hasn't strengthened GSPC's agenda by aligning with AQ.
    Ambassador Benjamin. I----
    Mr. Smith. Ambassador, you stated earlier you were going to 
get to some counter trends.
    Ambassador Benjamin. That was just what I was going to get 
to, and that is that there are other groups that have looked at 
al Qa'ida and who have been approached about merging and have 
declined to. And the Libyan Islamic Fighting Group is a case in 
point, a group that is actually, you know, in negotiations to 
put down its arms, or perhaps those negotiations have been 
concluded, a group that saw that it didn't have a future with 
al Qa'ida, didn't want the external direction of that sort.
    And, you know, that it suggests to me that the picture is 
more complicated out there. And in fact, within the Egyptian 
group of radicals, some chose to go with al Qa'ida, some chose 
not to. Some decided that the al Qa'ida argument about 
attacking the far enemy, attacking the West, was persuasive. 
Others did not.
    So it is not a monolithic picture, and I think that is 
important to keep in mind.
    Mr. Smith. I want to--just one more area of questions I 
want to ask. Going back, you mentioned early on, you know, some 
of the efforts of the administration to do outreach to help 
with some of the counter radicalization efforts, the Cairo 
speech, you know, being most prominent.
    I think we need to do a better job sort of making clear why 
that is so important in the broader battle against al Qa'ida. 
And I think that sort of gets into the narrative that al Qa'ida 
is pushing. I think there are a number of different pieces. I 
mean one of the things I do believe that we need to do better 
is a little bit of negative campaigning.
    I think al Qa'ida has fallen the most, based on their own 
actions, basically. Certainly, we have disrupted them, but, you 
know, you look to the bombing in Jordan when they bombed the 
wedding party at the Hotel Jordan, just totally, you know, the 
population in the country always was against them. The 
population turns against them.
    The violent acts of Zarqawi and others in Iraq totally 
turned the Iraqi population against them, so sort of pointing 
out, as I like to put it, that, you know, for all of the 
ideology, you know, they love to go online and talk about their 
Islamic outlook and all of this stuff, but the bottom--at the 
end of the day, they are a bunch of violent psychopaths. And 
when that is made obvious, it undermines their support across 
the Muslim world. We certainly want to make that point.
    On the other side, their message to Muslims that have some 
appeal, because, you know, many, many Muslim countries don't 
have a great deal of economic opportunity, don't have a great 
deal of political freedom, and al Qa'ida blames the West for 
that. The West is at war with Islam. In a nutshell, that is 
their message.
    If you go into jihad, it is a defensive posture because of 
what the West is doing to us. They want to eliminate us. I mean 
that is the message they send. It is, obviously, not true and 
not what we want to do, and I think some of the outreach 
efforts are designed to counter that. And this is a place 
where, even though we are not the most reliable interlocutor, 
as you correctly pointed out, we still have to deliver some 
kind of message that begins to counter that.
    So walk us through the Cairo speech a little bit, and then 
the overall strategy of how we present an image that makes it 
clear to the Muslim world that al Qa'ida is lying about us--
simply isn't true--why that is so important and how we do it.
    Ambassador Benjamin. Well, of course, this is a very large 
and multifaceted effort. I think that the president did a 
superb job of reopening the dialogue, in a sense, between the 
United States and large parts of the Muslim world, many 
different Muslim communities. And his focus on our need to work 
together based on common interests and shared respect, I think, 
is vitally important. And that is a message that he has gone to 
great lengths to underscore along the way.
    I think that his general message, and the administration's 
message, that we understand that we cannot--that we as a nation 
will not prosper and that we will not--that we will not 
flourish as long as others are lagging behind is a very 
powerful one. At the moment, we have to recognize that there is 
an awful lot going on out there that is that those communities 
are looking to--for support of that message.
    And I think that the president and his team have shown, for 
example, a great deal of engagement on the Middle East peace 
process as a further example of that kind of commitment to deal 
with key issues of concern.
    Obviously, there is a lot of work to be done here, because 
we did not get to the position that we saw in the last year or 
two in that kind of low polling numbers which were indicative 
of that position overnight. And so there does need to be that 
kind of engagement.
    I know that my boss, the secretary of state, is deeply 
committed to this. And, you know, she has appointed the first 
ever special representative to Muslim communities. She made a 
point of going to the conference in Morocco and to continue to 
amplify on these messages her commitment to a whole range of 
different programs of engagement in the Middle East, but in 
other parts of the Muslim world, I think, is also exemplary in 
that regard.
    There is no question we have a lot of work to do. And, you 
know, a great deal of it will be in the realm of the dialogue, 
and a great deal of that will be in the realm of action.
    Mr. Smith. Thank you. That is all I have got at this time. 
If there are any other questions?
    Mr. Marshall. Ambassador, your countering violent extremism 
office--how are you organized, staffed, is it interagency, how 
are you funded, what are you essentially doing, planning to do, 
just thumbnail summary of all of that?
    Ambassador Benjamin. We have actually convened a number of 
interagency conferences to discuss this work. I have hired a 
number of staff to do this. We are looking to work closely, 
particularly with embassies, because they have the ground 
knowledge, and they are the ones who will----
    Mr. Marshall. Do you have a separate budget?
    Ambassador Benjamin. We have within our budget a line for, 
a line item for CVE. And we are working on making that a more 
robust number in----
    Mr. Marshall. Can you go ahead and tell us what is right 
now?
    Ambassador Benjamin. I cannot tell you what it is right 
now. I----
    Mr. Marshall. How many personnel? Do you roughly know how 
many personnel----
    Ambassador Benjamin. Are doing it in my office?
    Mr. Marshall. Yes.
    Ambassador Benjamin. Half a dozen in----
    Mr. Marshall. And current programs besides convening and 
talking about this?
    Ambassador Benjamin. We are working with NCTC and others to 
come up with an agenda to visit a number of different posts. We 
have put out notices to post of the kind of programming that we 
are interested in doing. We have done quite a lot of smaller 
projects in the past through the Ambassador's Fund, which is 
roughly a million dollars.
    Mr. Marshall. So it sounds like you are sort of getting up 
and running at this point?
    Ambassador Benjamin. We are getting up and running.
    Mr. Marshall. Okay.
    Ambassador Benjamin. I would not present it as more than 
that.
    Mr. Marshall. Is this a new effort or is it modeled after 
something we have been--are you taking over from others within 
state that we are doing something similar?
    Ambassador Benjamin. There have been a number of different 
CVE programs within the Office of the Coordinator. One of the 
problems that we have in the government is nomenclative--lots 
of people believe they are doing CVE. It means a lot of 
different things to different organizations. To us, this means 
addressing concerns in communities that are on the edge of 
radical issue.
    Mr. Marshall. We are the Armed Services Committee.
    Ambassador Benjamin. Right.
    Mr. Marshall. So pardon me if I demonstrate my ignorance 
about how state is organizing, what it has been doing in this 
effort. CVE is a term that you all have had around--right.
    Ambassador Benjamin. Counter violent extremists.
    Mr. Marshall. Well, I got that part, but----
    Ambassador Benjamin. I am sorry.
    Mr. Marshall [continuing]. How long has that term been 
around?
    Ambassador Benjamin. I will be very frank. It met me when I 
walked in the door in late May and I guess it has been going on 
within the government for several years, but I was not familiar 
with it until I got sworn in.
    Mr. Marshall. Okay.
    Ambassador Benjamin. I really don't have anything else. 
Thank you----
    Mr. Marshall. Do you want to talk about the CVE----
    Ambassador Benjamin. Well, thank you all.
    Mr. Marshall [continuing]. Of it. We can all agree that we 
are in favor, right, countering violent extremism?
    Mr. Smith. Well, I want to thank all of you and, also, you 
know, point out, you know, all three of you represent agencies 
that have men and women across the globe in harm's way doing 
very difficult tasks in very dangerous places as part of this 
effort. Certainly DOD, Special Operations Command, they are 
fighting the fight in a number of different countries.
    You know, the State Department as well has people doing the 
development, the communications piece in harm's way. I am 
really confronting the challenge that we face in a very 
comprehensive way and we appreciate that.
    We can always get better at it. The purpose of this hearing 
is to have that conversation so that we in Congress can 
cooperate with you to get to that point, what we can improve 
and do better at this very, very important task. But we really 
appreciate all the work that you are doing.
    Mr. Marshall. Mr. Chairman? Mr. Chairman? Could I say one 
last thing to----
    Mr. Smith. So I am finished there anyway.
    Mr. Marshall. This may be the chairman's last formal 
hearing as chair of this committee. I have a sense that he may 
be moving on to another subcommittee.
    And for the record, I would just like to say that all of us 
who have worked on the committee have enjoyed his leadership 
and found him to have been very thoughtful and very, very 
energetic in sort of exploring the--you know, in a very 
creative fashion frankly, I thought, the different issues that 
this committee ought to be, this subcommittee ought to be 
wrestling with.
    So I want to compliment you on the record before you moved 
on.
    Mr. Smith. Thank you, Jim. I appreciate that and I know we 
will see. We are going to be reorganizing in light of a 
retirement on our committee. I will say that no matter what, I 
will remain on this committee even if not as chair. These 
issues are very important to me and will continue working on 
them. That's kind of you Jim--I appreciate that.
    And with that, we are adjourned. Thank you very much for 
your testimony.
    [Whereupon, at 4:19 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            January 20, 2010

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 20, 2010

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
